M E M O R A N D U M

                                                                                     August 28, 2001


To:          Michael Bartell
From:        Walter Stachnik
Re:          IT Decision Making Process (Report No. 334)


In response to risks identified in a risk assessment of Information Technology (IT)
(Report No. 336), the Office of Inspector General conducted a “Business Process
Review” (BPR) of the Commission’s IT capital investment decision-making process.
The initial objective of the engagement was to improve communication between the
Office of Information Technology (OIT) and the users in the Commission.
Workshops were conducted with regional and headquarters ADP Liaisons to identify
issues and recommendations for improvements1. Subsequent to the workshops, the
scope of the review was modified to focus on IT capital investment decision-making.
The revised objective was to develop “repeatable, successful IT project-level control
processes and basic selection processes”2 with OIT and other Commission
components.
Working closely with OIT management, a proposal was developed to create an
Information Officer Council (IOC) consisting of senior managers from Commission
divisions and major offices. As initially conceived, the IOC would evaluate and
recommend projects and IT rules to the IT Capital Planning Committee (CPC). The
IOC would also direct the preparation of IT proposals from their components and
work with OIT project managers and contractors in managing IT projects
underway.3 The proposal was discussed and approved by the OIG Advisory
Committee and CPC (see Attachment A). Information Officer selection criteria were
also presented.
In concert with OIT staff, initial, minimum evaluation criteria were developed from
a survey of laws and regulations applicable to making IT capital investment
decisions in the federal government (see Attachment B). A group decision-making
methodology, using OIT personnel and COTS software, was identified that would aid
the IOC in making better IT decisions.
On July 25, 2001, presentations on applicable IT laws and regulations (Attachment
C) and the minimum evaluation criteria were given to the IOC by OIG staff (other
training was provided by OIT staff).
1
  Training in laws and regulations applicable to IT in the Federal government was also provided to the
   Liaisons.
2
  That is “ITIM Stage 2,” described in Information Technology Investment Management: A Framework for
   Assessing and Improving Process Maturity (GAO/AMID-10.1.23).
3
  The IOC may expand its reach into other IT areas as its expertise and knowledge expands.
We plan to evaluate the operation of the IOC in Spring/Summer 2002 using the GAO
Framework for Assessing and Improving (the IT capital investment) Process
Maturity.
I commend you and your staff for your efforts in developing the proposal and
working with the divisions and offices to train and develop their senior staff on IT
matters. I also want to thank you and your staff for all your assistance to our office.


Cc:    James McConnell
       Mark Radke
       Jonathan Karp
       Leanne Vaeth
